audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the
	City of Hapeville Police Department
GR-40-99-008
February 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of three grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the Hapeville, Georgia, Police Department, (grantee).  The grantee received:  (1) a grant of $69,262 (96-UM-WX-2440) to hire one additional sworn law enforcement officer under the Funding Accelerated for Smaller Towns (FAST) program, (2) a $322,916 supplement to the FAST grant to hire five additional sworn officers under the Universal Hiring Program (UHP), and
(3) a grant of $33,909 to redeploy two full-time equivalent officers under the Making Officer Redeployment Effective (MORE) program.  The purpose of the additional officers is to enhance community policing efforts.

	In brief, the grantee:

Claimed $57,110 in unallowable salaries and fringe benefits under the FAST/UHP and MORE grants.

	Could not support the reimbursement of $28,897 under the MORE grant because the grantee did not track the redeployment of officers into community 	policing as required.
  
	Could not support that matching contributions of $83,907 came from local funds not previously budgeted for law enforcement.

	Did not decrease the federal share claimed each year of the grant as required.   
 
	Did not submit timely and accurate monitoring reports to COPS and the Office of Justice Programs. 

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.